Nos. 19-840, 19-1019
IN THE

Supreme Court of the United States
THE STATE OF CALIFORNIA, ET AL.,
Petitioners,
v.
THE STATE OF TEXAS, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 13th day of May, 2020, I caused three copies of the Brief for First Focus on
Children and The Children’s Partnership as Amici Curiae in Support of Petitioners to
be served by third-party commercial carrier on the counsel identified below, and caused
an electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.
Samuel P. Siegel
Deputy Solicitor General
CALIFORNIA DEPARTMENT OF JUSTICE
1300 I Street
Sacramento, CA 95814
(916) 210-6269
sam.siegel@doj.ca.gov

Noel J. Francisco
Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioners and CrossRespondents State of California, et al.

Counsel for Respondents and CrossRespondents United States, et al.

Douglas N. Letter
General Counsel
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Office Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

Kyle D. Hawkins
Solicitor General
TEXAS ATTORNEY GENERAL’S OFFICE
P.O. Box 12548 (MC 059)
Austin, TX 78711
(512) 936-1700
kyle.hawkins@oag.texas.gov

Counsel for Respondent and CrossRespondent U.S. House of
Representatives

Counsel for Respondents and CrossPetitioners State of Texas, et al.
Robert E. Henneke
TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
rhenneke@texaspolicy.com
Counsel for Respondents and CrossPetitioners Neill Hurley and John Nantz

___________________________
Andrew J. Wilhelm

2

